                                                                 Issue Date
                                                                          September 30, 2007
                                                                 Audit Report Number
                                                                          2007-CH-1018




TO:         Robert Berlan, Director of Community Planning and Development, 5ID


FROM:       Heath Wolfe, Regional Inspector General for Audit, 5AGA

SUBJECT: The City of Milwaukee, Wisconsin, Needs to Improve Existing Controls over Its
           HOME Program Regarding Housing Conditions and Contracting

                                   HIGHLIGHTS

 What We Audited and Why

             We audited the City of Milwaukee’s (City) HOME Investment Partnerships
             Program (Program). The audit was part of the activities in our fiscal year 2007
             annual audit plan. We selected the City based upon our analysis of risk factors
             relating to Program grantees in Region V’s jurisdiction. Our objectives were to
             determine whether the City effectively administered its Program and followed the
             U.S. Department of Housing and Urban Development’s (HUD) requirements.

 What We Found

             The City needs to improve existing controls over the administration of its
             Program regarding housing conditions and contracting to ensure it follows HUD’s
             requirements. It did not ensure that its owner-occupied single-family
             rehabilitation projects (projects) and American Dream Downpayment Initiative
             (Initiative) activities (activities) met HUD’s and/or the City’s property standards
             (standards) and did not maintain an effective system of controls over its
             contracting processes for projects. It used more than $300,000 in HUD funds
             (Program and Initiative) for projects and activities that did not meet HUD’s and/or
             the City’s standards.
           We informed the director of the City’s Community Development Grants
           Administration (Administration) and the Director of HUD’s Milwaukee Office of
           Community Planning and Development of minor deficiencies through a
           memorandum, dated September 30, 2007.

What We Recommend

           We recommend that the Director of HUD’s Milwaukee Office of Community
           Planning and Development require the City to ensure that housing rehabilitation
           work and required repairs are completed or reimburse its Program and Initiative
           from nonfederal funds for the projects and an activity that did not meet HUD’s
           and/or the City’s standards and implement adequate procedures and controls to
           address the findings cited in this audit report. These procedures and controls
           should help ensure that at least $120,000 in Program funds is appropriately used
           over the next year for projects that meet HUD’s and the City’s standards.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence issued because of the audit.

Auditee’s Response

           We provided our discussion draft audit report and supporting schedules to the
           director of the City’s Administration, the City’s mayor, and HUD’s staff during the
           audit. We held an exit conference with the City’s director on September 18, 2007.

           We asked the City’s director to provide comments on our discussion draft audit
           report by September 28, 2007. The director provided written comments, dated
           September 25, 2007. The director generally did not agree with finding 1, but
           generally agreed with finding 2. The complete text of the written comments, along
           with our evaluation of that response, can be found in appendix B of this report.




                                             2
                            TABLE OF CONTENTS

Background and Objectives                                                           4

Results of Audit
      Finding 1: The City’s Projects and Activities Did Not Meet HUD’s and/or the   5
                 City’s Standards

      Finding 2: The City Needs to Improve Existing Controls over Its Contracting   12
                 Processes for Projects

Scope and Methodology                                                               14

Internal Controls                                                                   16

Appendixes
   A. Schedule of Questioned Costs and Funds to Be Put to Better Use                18
   B. Auditee Comments and OIG’s Evaluation                                         19
   C. Federal Regulations and the City’s Requirements                               41




                                             3
                     BACKGROUND AND OBJECTIVES

The Program. Authorized under Title II of the Cranston-Gonzales National Affordable Housing
Act, as amended, the HOME Investment Partnerships Program (Program) is funded for the purpose
of increasing the supply of affordable standard rental housing; improving substandard housing for
existing homeowners; assisting new homebuyers through acquisition, construction, and
rehabilitation of housing; and providing tenant-based rental assistance. The American Dream
Downpayment Assistance Act established a separate funding formula for the American Dream
Downpayment Initiative (Initiative) under the Program to provide downpayment assistance, closing
costs, and rehabilitation assistance to eligible first-time homebuyers.

The City. Organized under the laws of the State of Wisconsin, the City of Milwaukee (City) is
governed by a mayor and 15-member common council (council), including a council president,
elected to four-year terms. The council’s community and economic development committee
oversees the City’s Community Development Grants Administration (Administration), which is
responsible for the oversight and monitoring of the City’s Program. The overall mission of the
Administration is to work collaboratively with nonprofit groups, government agencies, and public
and private coalitions to increase homeownership and property values, reduce crime, and promote
greater employment and business activity in the City. The City’s Program records are located at
200 East Wells Street, Milwaukee, Wisconsin.

The following table shows the amount of Program and Initiative funds the U.S. Department of
Housing and Urban Development (HUD) awarded the City for Program years 2003 through 2006.

                           Program         Program          Initiative
                             year            funds            funds
                             2003           $7,109,132         $312,745
                             2004            7,096,687          369,048
                             2005            6,844,707          210,439
                             2006            6,441,475          105,007
                            Totals         $27,492,001         $997,239

The City awarded Program funds to six contractors, also called neighborhood improvement
project agencies (agencies), and one subrecipient, the City’s Department of City Development
(Department), to provide housing rehabilitation assistance for owner-occupied single-family
rehabilitation projects (projects) between January 2005 and December 2006. Our audit only
included projects from three of the agencies and the City’s Department. The three agencies,
which are nonprofit organizations, consisted of Gibraltar Development Corporation, Harambee
Ombudsman Project, Incorporated (Harambee), and YMCA of Metropolitan Milwaukee
(YMCA). The City awarded Initiative funds to Select Milwaukee, Incorporated, a nonprofit
organization, to assist homebuyers with downpayments and closing costs for Initiative activities
(activities). Initiative funds were also used to provide homebuyer counseling.

Our objectives were to determine whether the City effectively administered its Program and
followed HUD’s requirements.


                                                4
                                 RESULTS OF AUDIT

Finding 1: The City’s Projects and Activities Did Not Meet HUD’s
                      and/or the City’s Standards
The City did not ensure that its projects and activities met HUD’s and/or the City’s property
standards (standards). All 16 of the City’s projects inspected did not meet HUD’s and the City’s
standards and had material deficiencies that existed at the completion of the housing
rehabilitation work. The City used Program funds to pay for housing rehabilitation work that
was improperly performed or not provided. It also did not include all of the necessary housing
rehabilitation work in the scopes of work for the 16 projects. Further, of the City’s four Initiative
activities inspected, three did not meet HUD’s standards and one had material deficiencies that
existed at the time the City provided Initiative funds to assist homebuyers with downpayments
and closing costs. The deficiencies occurred because the City lacked adequate procedures and
controls to ensure that its projects and activities met HUD’s and/or the City’s standards. As a
result, the City used more than $300,000 in HUD funds (Program and Initiative) for projects and
activities that did not meet HUD’s and/or the City’s standards. Based on our project sample, we
estimate that over the next year, the City will use Program funds for projects that, after the
completion of the housing rehabilitation work, need at least $120,000 in required repairs to meet
HUD’s and the City’s standards.


 The City Used Program Funds
 for Projects That Did Not Meet
 HUD’s and the City’s
 Standards

               We selected for inspection the City’s 16 projects that passed final inspection from
               March 25 through June 5, 2007. Our appraiser inspected the 16 projects from June
               25 through July 10, 2007, to determine whether the City ensured that the projects
               met HUD’s and the City’s standards at the completion of the housing rehabilitation
               work.

               The 16 projects inspected had a total of 132 deficiencies, including 79 which were
               considered health and safety deficiencies, indicating that the projects did not meet
               HUD’s and the City’s standards at the completion of the housing rehabilitation
               work. Either the agencies or the City’s Department noted 9 of the 132 deficiencies
               in the scopes of work for four of the projects. All 16 projects were considered to be
               in material noncompliance since they had multiple preexisting deficiencies and/or
               the deficiencies were noted in the scopes of work but not corrected. The City
               provided $296,063 in housing rehabilitation assistance for the 16 projects. In
               addition, it used $3,513 in Program funds to pay for housing rehabilitation work




                                                 5
             contained in the scopes of work that was improperly performed ($3,236) or that was
             not provided ($277).

             The improper work and/or work not provided existed in 11 of the 16 projects. Our
             appraiser estimated that the 16 projects needed more than $12,000 in required
             repairs to meet HUD’s and the City’s standards. The City also recorded property
             liens against the 16 properties for the amount of Program funds it estimated it would
             provide for housing rehabilitation assistance. The following table categorizes the
             132 deficiencies in the 16 projects.

                                                                          Number of
                                           Types of deficiencies          deficiencies
                                    Electrical                                 61
                                    Doors                                      12
                                    Windows                                     9
                                    Interior stairs and rails                   7
                                    Smoke detectors                             6
                                    Flush toilets                               6
                                    Water heaters                               5
                                    Floors                                      5
                                    Stoves/ranges and refrigerators             4
                                    Fixed wash basins                           4
                                    Ventilation                                 4
                                    Exterior surfaces                           1
                                    Ceiling                                     1
                                    Space for storage and preparation           1
                                    Foundation                                  1
                                    Exterior stairs, rails, and porches         1
                                    Roof/gutters                                1
                                    Chimney                                     1
                                    Heating equipment                           1
                                    Plumbing/sewer/water supply                 1
                                                     Total                    132

             We provided our inspection results to the Director of HUD’s Milwaukee Office of
             Community Planning and Development and the director of the City’s Administration
             on August 28, 2007.

Electrical Deficiencies

             Sixty-one electrical deficiencies were present in 15 of the City’s projects inspected.
             The following items are examples of electrical deficiencies listed in the table:
             ground fault circuit interrupter outlets not tripping, broken and missing electrical
             outlet cover plates, outlets not properly grounded, light fixtures hanging by wires,
             and holes in junction boxes. The following pictures are examples of the electrical
             deficiencies identified.


                                                  6
Project #7826: Outlet
missing cover plate and
exposing electrical
contacts.




Project #8114: Light
fixture hanging from wires
exposing electrical
contacts.




 Door Deficiencies

                 Twelve door deficiencies were present in eight of the City’s projects inspected. The
                 following items are examples of door deficiencies listed in the table: gaps between
                 doors and door frames, loose and missing doorjambs and doorknobs, loose and
                 detached closet door hinges, a deadbolt on a kitchen door that is operated from the
                 inside with a key, and a cracked glass pane in a door. The following pictures are
                 examples of the door deficiencies identified.




                                                   7
Project #8113: Kitchen
door with keyed deadbolt
lock on inside which can
prevent egress.




Project #7901: Detached
bedroom closet door
hinge.




 Window Deficiencies

                 Nine window deficiencies were present in five of the City’s projects inspected. The
                 following items are examples of window deficiencies listed in the table: broken and
                 cracked glass window panes, windows with warped and deteriorated edges, and an
                 improperly sealed window frame. The following pictures are examples of the
                 window deficiencies identified.




                                                  8
Project #8156: Broken
glass panes on a basement
window allowing moisture
to enter and possible
infestation. Household
used towel to cover
window.




Project #8114: Newly
installed window not
appropriately sealed and
not preventing moisture
from entering window
perimeter.




 The City Used Initiative Funds
 for Activities That Did Not
 Meet HUD’s Standards

                 We selected for inspection the City’s four activities in which loans were closed from
                 March 30 through June 30, 2007. Our appraiser inspected the four houses from July
                 9 through July 10, 2007, to determine whether the City ensured that the houses met
                 HUD’s standards when it provided Initiative funds for downpayments and closing
                 costs.



                                                   9
             Three of the houses inspected had six deficiencies, including five which were
             considered health and safety deficiencies, indicating that the houses did not meet
             HUD’s standards. The following table shows the deficiencies in the three houses.

                      Activity
                      number                                 Deficiencies
                       8284       •   Two outlets in living room missing outlet covers
                                  •   Missing duct grille and diffuser in bathroom
                                  •   Holes in junction box covered with tape
                       8311       •   Outlet in kitchen with an open ground
                       8312       •   Outlet in basement with an open ground


             One of the houses was considered to be in material noncompliance since it had
             multiple preexisting deficiencies. The City provided $5,500 in downpayments,
             closing costs, and homebuyer counseling for the activity. The City also recorded a
             property lien against the property for the amount of Initiative funds provided for
             downpayments and closing costs.

The City Lacked Adequate
Procedures and Controls

             The deficiencies occurred because the City lacked adequate procedures and controls
             to ensure that its projects and activities met HUD’s and/or the City’s standards. The
             City’s Administration did not adequately monitor the agencies and the City’s
             Department to ensure that the projects and activities met HUD’s and/or the City’s
             standards.

Conclusion

             The City did not ensure that its projects and activities met HUD’s and/or the City’s
             standards. In addition, the City used HUD funds to pay for housing rehabilitation
             work that was incomplete and/or improperly performed, and it did not include all of
             the necessary housing rehabilitation work in the scopes of work. The City used
             $301,563 in HUD funds for the 16 projects ($296,063 in Program funds) and one
             activity ($5,500 in Initiative funds) that materially failed our inspections.

             If the City implements adequate procedures and controls over Program funds to
             ensure compliance with HUD’s and/or the City’s standards, we estimate that over
             the next year it will not use Program funds for projects that, after the completion of
             the housing rehabilitation work, need at least $120,000 in required repairs to meet
             HUD’s and the City’s standards. Our methodology for this estimate is explained in
             the Scope and Methodology section of this audit report.




                                                 10
Recommendations

          We recommend that the Director of HUD’s Milwaukee Office of Community
          Planning and Development require the City to

          1A.     Certify that the housing rehabilitation work cited in this finding is
                  completed in accordance with HUD’s and the City’s standards and the
                  projects meet HUD’s and the City’s standards or reimburse its Program
                  $296,063 from nonfederal funds for the housing rehabilitation assistance
                  that was provided for the 16 projects that materially failed to meet HUD’s
                  and the City’s standards and release the applicable liens against the
                  properties.

          1B.     Implement adequate procedures and controls to ensure projects meet
                  HUD’s and the City’s standards at the completion of the housing
                  rehabilitation work. This will prevent projects completed over the next 12
                  months from needing an additional $120,000 in required repairs to meet
                  HUD’s and the City’s standards.

          1C.     Certify that the required repairs cited in this finding are completed in
                  accordance with HUD’s standards and the house meets HUD’s standards
                  or reimburse its Initiative $5,500 from nonfederal funds for the
                  downpayment, closing costs, and homebuyer counseling for the one
                  activity that materially failed to meet HUD’s standards and release the
                  applicable lien against the property.

          1D.     Ensure that the two deficiencies cited in this finding for activity numbers
                  8311 and 8312 are repaired.

          1E.     Implement adequate procedures and controls to ensure that houses
                  purchased with Initiative funds meet HUD’s standards.




                                           11
Finding 2: The City Needs to Improve Existing Controls over Its
                  Contracting Processes for Projects
The City did not maintain an adequate system of controls over its contracting processes for
projects. It failed to ensure that the agencies always complied with HUD’s regulations and the
City’s requirements for full and open competition regarding the procurement of housing
rehabilitation services. The weaknesses occurred because the City lacked adequate procedures
and controls over its contracting processes for projects. As a result, HUD and the City lack
assurance that Program funds were used efficiently and effectively, and the City’s procurement
transactions were not always subject to full and open competition.



 The City Did Not Ensure That
 Agencies Awarded Housing
 Rehabilitation Contracts
 through Full and Open
 Competition

              We reviewed the procurement transactions for the City’s 16 projects that passed
              final inspections from March 25 through June 5, 2007. The agencies administered
              six of the projects and awarded 13 housing rehabilitation contracts for the six
              projects from April 2006 through February 2007. The City used $135,495 in
              Program funds to pay for the housing rehabilitation services. However, four
              contracts were not awarded through full and open competition. In addition, the
              City did not maintain records sufficient to detail the significant history of the
              procurements.

              The City did not ensure that the agencies, Harambee and YMCA, obtained price
              or rate quotations from an adequate number of contractors for three contracts. It
              used $14,335 in Program funds for the three contracts that were awarded from
              April through November 2006. HUD’s regulations require price or rate
              quotations from an adequate number of contractors. However, the agencies only
              obtained one bid for two of the contracts and negotiated the price with a
              contractor for the other contract. Neither the City nor the agencies documented
              justifications for not obtaining price or rate quotations from an adequate number
              of contractors. The City also did not ensure that Harambee maintained adequate
              documentation to support that it attempted to obtain price or rate quotations from
              at least three contractors for two of these contracts totaling $3,935.

              The City did not ensure that YMCA provided written requests for proposals to at
              least three contractors for one contract. The City used $10,400 in Program funds
              for the contract that was awarded in November 2006. The City’s Program
              contract for services with YMCA requires written requests for proposals to be
              sent to at least three contractors for contracts that range from $5,000 to $25,000.
              However, neither the City nor YMCA could provide adequate documentation to


                                               12
           support that YMCA provided written requests for proposals to at least three
           contractors for the contract.

           Contrary to the City’s Program contract for services, Harambee did not publicly
           advertise its request for proposals for one contract that exceeded $25,000. The
           contract totaled $25,300 and was awarded in April 2006. The advertisement was
           to occur in either the Milwaukee Journal Sentinel or The Daily Reporter.

           Further, the City and the agencies were missing and/or had incomplete
           documentation as follows for the six projects:

                    Eight bids were not signed;
                    Six bids were missing; and
                    Two bids were not dated.

           The City used an additional $6,602 in Program funds from April through August
           2006 to pay two contractors for three housing rehabilitation services invoices
           without contracts. Neither the City nor Harambee could provide any
           documentation regarding the procurement of the services.

The City Lacked Adequate
Procedures and Controls

           The deficiencies occurred because the City lacked adequate procedures and
           controls to ensure that the agencies procured housing rehabilitation services
           according to HUD’s regulations and its requirements. The City’s Administration
           did not adequately monitor the agencies to ensure that procurement transactions
           were always subject to full and open competition. As a result, HUD and the City
           lack assurance that Program funds were used efficiently and effectively, and the
           City’s procurement transactions were not always subject to full and open
           competition.

Recommendation

           We recommend that the Director of HUD’s Milwaukee Office of Community
           Planning and Development require the City to

           2A.       Implement adequate procedures and controls to ensure that the
                     procurement of housing rehabilitation services by the agencies meet
                     HUD’s regulations and the City’s requirements.




                                             13
                         SCOPE AND METHODOLOGY

To accomplish our objectives, we reviewed

            •   Applicable laws; HUD’s regulations at 24 CFR [Code of Federal Regulations] Parts
                5, 35, 84, 85, 92, and 982; Office of Management and Budget Circulars A-87 and
                A-122; and HUD’s “Building HOME: a Program Primer.”

            •   The City’s accounting records; comprehensive annual financial report for 2005;
                annual audited financial statements for 2005; data from HUD’s Integrated
                Disbursement Information System; Program, project, and activity files;
                computerized databases; policies; procedures; organizational chart; and
                consolidated strategy and annual action plans.

            •   The agencies’ and the City’s Department’s accounting records, annual audited
                financial statement management letters for 2004 and 2005, Program and project
                files, policies, and procedures.

            •   HUD’s files for the City.

We also interviewed the City’s employees, the agencies’ and the City’s Department employees,
Program participants, and HUD’s staff.

Finding 1

Projects
We selected for inspection all 16 of the City’s projects that passed final inspections from March
25 through June 5, 2007. Our appraiser inspected the 16 projects to determine whether the City
ensured that the projects met HUD’s and the City’s standards at the completion of the housing
rehabilitation work. The City provided $296,063 in Program funds for the 16 projects.

Our sampling results determined that all 16 projects (100 percent) materially failed to meet
HUD’s and the City’s standards at the completion of the housing rehabilitation work. A project
was considered in material noncompliance when it contained multiple preexisting deficiencies
and/or the deficiencies were noted in the scope(s) of work but not corrected. Our appraiser
estimated that the 16 projects needed $12,056 (4 percent of the Program funds provided) in
required repairs to meet HUD’s and the City’s standards.

The City allocated more than $3 million in Program funds on projects per year for Program years
2004 through 2007. It also plans on allocating more than $3 million in Program funds on
projects for Program year 2008. We estimated that the City will annually use Program funds for
projects that, after the completion of the housing rehabilitation work, need at least $120,000 ($3
million times 4 percent) in required repairs to meet HUD’s and the City’s standards. This
estimate is presented solely to demonstrate the annual amount of Program funds that could be put
to better use on eligible projects if the City implements our recommendation. While these


                                                14
benefits would recur, we were conservative in our approach and only included the initial year in
our estimate.

Activities
We selected for inspection all four of the City’s Initiative activities in which loans were closed
from March 30 through June 30, 2007. Our appraiser inspected the four houses to determine
whether the City ensured that the houses met HUD’s standards when the City provided Initiative
funds for downpayments and closing costs.

Our sampling results determined that one of the four houses (25 percent) materially failed to
meet HUD’s standards when the City provided Initiative funds for downpayments and closing
costs. An activity was considered in material noncompliance when it contained multiple
preexisting deficiencies.

Finding 2

We selected all 16 of the City’s projects that passed final inspections from March 25 through
June 5, 2007. The 16 projects were selected to determine whether the City ensured that its
agencies and the City’s Department complied with HUD’s regulations and the City’s
requirements regarding the procurement of housing rehabilitation services.

We performed our on-site audit work from February through July 2007 at the City’s Administration
office located at 200 East Wells Street, Milwaukee, Wisconsin. The audit covered the period
January 2005 through December 2006 and was expanded as determined necessary.

We performed our audit in accordance with generally accepted government auditing standards.




                                                15
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting,
   •   Compliance with applicable laws and regulations, and
   •   Safeguarding resources.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls

              We determined the following internal controls were relevant to our audit objectives:

              •       Program operations - Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

              •       Validity and reliability of data - Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

              •       Compliance with laws and regulations - Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

              •       Safeguarding resources - Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if management controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                               16
Significant Weakness

           Based on our review, we believe the following item is a significant weakness:

           •   The City lacked adequate procedures and controls to ensure that it complied
               with HUD’s regulations and/or its requirements regarding housing
               rehabilitation work to ensure that houses meet standards and procurement of
               housing rehabilitation work (see findings 1 and 2).




                                           17
                                     APPENDIXES

Appendix A

               SCHEDULE OF QUESTIONED COSTS
              AND FUNDS TO BE PUT TO BETTER USE

                   Recommendation                          Funds to be put
                       number             Ineligible 1/    to better use 2/
                          1A                  $296,063
                          1B                                      $120,000
                          1C                     5,500
                         Totals               $301,563            $120,000


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     polices or regulations.

2/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an Office of Inspector General (OIG) recommendation is
     implemented. This includes reduction in outlays, deobligation of funds, withdrawal of
     interest subsidy costs not incurred by implementing recommended improvements,
     avoidance of unnecessary expenditures noted in preaward reviews, and any other savings
     that are specifically identified. In this instance, if the City implements our
     recommendation it will cease to use Program funds for projects that, after the completion
     of the housing rehabilitation work, need required repairs to meet HUD’s and the City’s
     standards. Once the City successfully improves its procedures and controls, this will be a
     recurring benefit. Our estimate conservatively reflects only the initial year of this benefit.




                                              18
Appendix B

        AUDITEE COMMENTS AND OIG’s EVALUATION

Ref to OIG Evaluation   Auditee Comments




                         19
Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2




                         20
Ref to OIG Evaluation   Auditee Comments




Comment 3




                         21
Ref to OIG Evaluation   Auditee Comments




Comment 3




                         22
Ref to OIG Evaluation   Auditee Comments




Comment 3




Comment 4
Comment 5
Comment 6
Comment 7




                         23
Ref to OIG Evaluation   Auditee Comments




Comments 4, 5,
   6, 7

Comment 8

Comments 6, 7,
   8




Comment 7




Comment 6




                         24
Ref to OIG Evaluation   Auditee Comments




Comment 6




Comment 6




Comment 9




                         25
Ref to OIG Evaluation   Auditee Comments




Comment 6

Comment 8




                         26
Ref to OIG Evaluation   Auditee Comments




Comment 2
Comment 10




Comment 4




Comment 7




Comment 7
Comment 6




                         27
Ref to OIG Evaluation   Auditee Comments




Comment 4


Comment 7


Comment 11


Comments 5, 7

Comment 4
Comments 5, 7

Comments 7, 25

Comments 7, 25




                         28
Ref to OIG Evaluation   Auditee Comments




Comment 13

Comment 3

Comments 8, 12

Comments 8, 12

Comments 8, 12

Comments 4, 22




Comment 3

Comment 4

Comments 8, 12




                         29
Ref to OIG Evaluation   Auditee Comments




Comment 4

Comment 3

Comment 4

Comments 8, 12

Comment 4


Comment 3

Comment 14


Comment 4
Comment 3


Comment 3

Comments 4, 6
Comments 8, 12

Comment 3

Comment 3




                         30
Ref to OIG Evaluation   Auditee Comments




Comment 3
Comment 3

Comments 4, 22

Comment 3
Comment 15

Comment 8


Comment 3
Comments 3, 8,
   12
Comment 3

Comments 8, 12
Comment 15

Comments 8, 12

Comment 4

Comments 8, 16
Comment 4

Comment 17
Comment 17
Comment 17




                         31
Ref to OIG Evaluation   Auditee Comments




Comment 4

Comment 4

Comment 4
Comment 4

Comments 8, 18

Comment 19


Comment 4

Comment 17



Comment 4

Comment 17

Comment 4




                         32
Ref to OIG Evaluation   Auditee Comments




Comment 4

Comment 4

Comment 4

Comment 4

Comment 4

Comments 5, 6
Comments 5, 6

Comments 5, 6


Comment 6


Comments 8, 18

Comments 8, 18
Comment 17

Comment 17

Comment 15




                         33
Ref to OIG Evaluation   Auditee Comments




Comment 4

Comment 4

Comments 5, 6

Comments 5, 6




Comments 8, 17,
   18

Comment 6




Comment 4
Comments 5, 6

Comment 4

Comment 4




Comment 20




                         34
Ref to OIG Evaluation   Auditee Comments




Comments 5, 6
Comments 5, 6

Comment 21




Comments 5, 6

Comments 5, 6
Comments 5, 6

Comments 5, 6
Comments 5, 6

Comment 17


Comment 4

Comment 4
Comment 18

Comment 22
Comment 4

Comment 4




                         35
Ref to OIG Evaluation   Auditee Comments




Comment 4
Comment 4

Comment 23


Comment 6




Comment 8

Comments 5, 6
Comment 4

Comments 8, 18,
   24
Comments 8, 18
Comments 8, 18,
   24

Comment 6




                         36
Ref to OIG Evaluation   Auditee Comments




Comments 18,
   24
Comment 8

Comment 4

Comment 4

Comment 4

Comments 5, 6


Comment 4

Comment 4




Comments 8, 18




                         37
                        OIG’s Evaluation of Auditee Comments

Comment 1   We did not interchangeably use HUD’s and the City’s standards. We stated that
            the City’s projects and activities did not meet HUD’s and/or the City’s standards.
            We provided our inspection reports to the director of the City’s Administration.
            The inspection reports detailed the standards in which the City’s projects and
            activities did not meet.

Comment 2   We revised the subject of the report to state the City needs to improve existing
            controls over its Program regarding housing conditions and contracting.

Comment 3   We paraphrased the City’s neighborhood improvement project handbook
            (handbook). Section V, paragraph H.3.a, of the City’s handbook, dated
            November 2005, contains a final inspection form, form CBGA-36, Housing
            Assistance Plan. The final inspection form states that the Department of
            Neighborhood Services’ scope of work was issued and all observable code
            violations pertaining to HUD’s housing quality standards, the State of
            Wisconsin’s Uniform Dwelling Code, and the City’s Code of Ordinances were
            identified and that all the code violations cited in the Department of
            Neighborhood Services’ scope of work have been corrected. The City’s
            Department completed a final inspection form for each project. Therefore, the
            City’s Department was required to include and correct all observable deficiencies
            pertaining to HUD’s housing quality standards in its scopes of work.

Comment 4   The City’s Code of Ordinances, volume II, chapter 275-62-3, state that when an
            electrical system in a structure constitutes a hazard due to inadequate service,
            improper fusing, insufficient outlets, improper wiring or installation, deterioration
            or damage, or for similar reasons the defects shall be corrected to eliminate the
            hazard.

Comment 5   We revised the report by removing references to outlets not being ground fault
            circuit interrupter outlets.

Comment 6   We revised the report to state that the 16 projects inspected had a total of 132
            deficiencies, including 79 which were considered health and safety deficiencies.
            Either the agencies or the City’s Department noted 9 of the 132 deficiencies in the
            scopes of work for four of the 16 projects. In addition, it used $3,513 in Program
            funds to pay for housing rehabilitation work contained in the scopes of work that
            was improperly performed ($3,236) or that was not provided ($277).

            We also revised the report to state that the improper work and/or work not
            provided existed in 11 of the 16 projects. Our appraiser estimated that the 16
            projects needed more than $12,000 in required repairs to meet HUD’s and the
            City’s standards.

            Recommendation 1B in this audit report was revised to reflect these revisions.



                                             38
Comment 7     We revised the report to state that three of the houses inspected had six
              deficiencies, including five which were considered health and safety deficiencies.

              We also revised the report to state one of the houses was considered to be in
              material noncompliance since it had multiple preexisting deficiencies. The City
              provided $5,500 in downpayment, closing costs, and homebuyer counseling for
              the activity. The City also recorded a property lien against the property for the
              amount of Initiative funds provided.

              We also remove from the report that our appraiser estimated that the two houses
              needed more than $500 in required repairs to meet HUD’s standards.

              Recommendations 1C and 1D in this audit report were revised to reflect these
              revisions.

Comment 8     Our appraiser, who is a licensed architect, determined that the deficiencies existed
              prior to the rehabilitation work being completed based on his experience and
              professional determination and discussions with household members who were
              present during our inspections.

Comment 9     The City did not comply with HUD’s regulations regarding the procurement of
              housing rehabilitation services.

Comment 10 The random sampling of completed projects for monitoring, if implemented,
           should assist in ensuring that projects meet HUD’s and the City’s standards.

Comment 11 The homebuyer did not inform our appraiser that the duct grille and diffuser were
           being sanded, painted, and returned to the homebuyer. Further, the City did not
           provide documentation to support that the duct grille and diffuser were being
           sanded, painted, and returned to the homebuyer.

Comment 12 HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.251(a)(1) state
           that housing rehabilitated with Program funds must meet all applicable local
           codes, rehabilitation standards, and ordinances at the time of project completion.
           Section 92.251(a)(2) states that housing acquired with Program funds must meet
           all applicable state and local housing quality standards and code requirements.

Comment 13 The hole in the soffit was on the south side of the house.

Comment 14 The damaged metal shielded wire was for the overhead light in the attic.

Comment 15 Although our appraiser noted the items in the inspection reports for the projects,
           our appraiser did not include the items as deficiencies.

Comment 16 The City did not provide documentation supporting that the switch had recently
           failed.



                                               39
Comment 17 The City did not provide documentation to support that the deficiencies were
           addressed after our inspections.

Comment 18 The City did not provide documentation supporting that the deficiencies did not
           exist at the time of the City’s final inspections.

Comment 19 The City’s Code of Ordinances, volume II, chapter 275-42-3, state that every
           bathroom and toilet room shall have at least one window which can be opened or
           an adequate mechanical ventilation system.

Comment 20 The City’s Code of Ordinances, volume II, chapter 275-33-1, state that the
           interior of a structure shall be maintained by the homeowner in a structurally
           sound condition so as not to pose a threat to the health and safety of the
           household.

Comment 21 We should have cited the City’s Code of Ordinances, volume II, chapter 275-33-
           7.a., which state that no owner of a single family dwelling that has two or more
           means of egress from the dwelling shall reduce or permit to be reduced the
           number of means of egress from the dwelling to less than two.

Comment 22 The City’s Code of Ordinances, volume II, chapter 275-33-6, state that every
           interior door, door hinge, and door latch shall be maintained in a good state of
           repair.

Comment 23 The City states that it does not concur with the deficiency, but agreed to address
           the deficiency.

Comment 24 The homeowners were not present during the inspections and did not inform our
           appraiser that the deficiencies were caused by the homeowners.

Comment 25 This is not a preexisting deficiency.




                                              40
Appendix C

              FEDERAL REGULATIONS AND THE CITY’S
                        REQUIREMENTS

Finding 1
Section III of the City’s 2006 Program memorandum of understanding between the City’s
Administration and Department states that the Department agrees that all expenditures of
Program funds shall comply with all federal, state, and local laws and regulations governing the
use of Program funds, including all federal regulations set forth at 24 CFR [Code of Federal
Regulations] 92.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.251(a)(1) state that housing
rehabilitated with Program funds must meet all applicable local codes, rehabilitation standards,
and ordinances at the time of project completion. The participating jurisdiction must have
written rehabilitation standards to ensure that housing assisted with Program funds is decent,
safe, and sanitary. Section 92.251(a)(2) states that housing acquired with Program funds must
meet all applicable state and local housing quality standards and code requirements.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.504(a) state that a participating
jurisdiction is responsible for managing the day-to-day operations of its Program, ensuring that
Program funds are used in accordance with all Program requirements and written agreements,
and taking appropriate action when performance problems arise. The use of subrecipients or
contractors does not relieve the participating jurisdiction of this responsibility.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.551(c) state that HUD’s
corrective and remedial actions for a performance deficiency (failure to meet a provision of 24
CFR [Code of Federal Regulations] Part 92) will be designed to prevent a continuation of the
deficiency; mitigate, to the extent possible, the deficiency’s adverse effects or consequences; and
prevent the deficiency’s recurrence. Section 92.551(c)(1) allows HUD to instruct a participating
jurisdiction to submit and comply with proposals for action to correct, mitigate, and prevent a
performance deficiency, including reimbursing its Program Investment Trust Fund for any
amount not used in accordance with the requirements of 24 CFR [Code of Federal Regulations]
Part 92.

Chapter XXXV, paragraph B.1., of the City’s 2006 Program contracts for services, states that the
agencies agree to follow the operating procedures in the City’s handbook regarding the use of
Program funds.

Section V, paragraph H.3.a, of the City’s handbook, dated November 2005, contains a final
inspection form, form CBGA-36, Housing Assistance Plan, which states that all observable
deficiencies pertaining to HUD’s housing quality standards, the State of Wisconsin’s Uniform
Dwelling Code, and the City’s Code of Ordinances were identified and corrected.


                                                41
Section VI, paragraph J.2, of the City’s handbook states that in July 2000, the City’s Department
of Neighborhood Services published the technical specification and performance standard. The
City’s Administration adopted the technical specification and performance standard and required
all City-funded rehabilitation programs to adhere to the technical specification and performance
standard.

Finding 2
Chapter XXIX, paragraph C, of the City’s 2006 Program contracts for services requires the
agencies to comply with all applicable provisions of 24 CFR [Code of Federal Regulations]
85.36 relating to procurement procedures with federal grant funds. Chapter XXXV, paragraph
B, states that the agencies agree to follow the operating procedures in the City’s handbook
regarding the use of Program funds.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 85.36(b)(9) require grantees and
subgrantees to maintain records sufficient to detail the significant history of a procurement, such
as the rationale for the method of procurement and the basis for the contract price.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 85.36(c)(1) state that all
procurement transactions will be conducted in a manner providing full and open competition.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 85.36(d)(1) state that when
procurement by small purchase is used, price or rate quotations will be obtained from an
adequate number of qualified sources.

HUD’s regulations at 24 CFR [Code of Federal Regulations] 92.251(a)(1) state that housing
rehabilitated with Program funds must meet all applicable local codes, rehabilitation standards,
and ordinances at the time of project completion.

Chapter XXIX, paragraph A, of the City’s 2006 Program contracts for services requires the
agencies to adhere to the following procurement procedures:

      For contracts less than $5,000, an agency must document that it contacted at least three
       bonafide sources and selected the source that provides the most appropriate product at a
       price most reasonable for the project.
      For contracts from $5,000 through $25,000, an agency must request proposals from at
       least three bonafide sources. Requests for proposals must be in writing. Copies of all
       bids received and a bid tabulation sheet that justifies the selected contractor must be
       maintained for each project. For a bid to be acceptable, it must be signed and dated.
      For contracts greater than $25,000, all requests for proposals must be advertised in either
       the Milwaukee Journal Sentinel or The Daily Reporter. Copies of all bids received and a
       bid tabulation sheet that justifies the selected contractor must be maintained for each
       project. For a bid to be acceptable, it must be signed and dated.

Section V, Paragraph A.2., of the City’s handbook states that agencies are required to have a
written procurement policy. The City’s Program contracts for services outline the proper bid


                                                42
procedures and procurement policies. Copies of all bid solicitations, received bids, selection
procedures, and all contracts must be kept in the agencies’ files.




                                                43
